Case 2:17-cr-00148 Document 60 Filed 11/20/19 Page 1 of 7 PagelD #: 353

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION
JOSHUA GREGORY RICHARDSON,
Petitioner,
v.

CIVIL ACTION NO. 2:18-cv-01503
(Criminal No. 2:17-cr-00148)

UNITED STATES OF AMERICA,
Respondent.

MEMORANDUM OPINION AND ORDER

On December 11, 2018, the Petitioner filed a motion under 28 U.S.C. § 2255 to vacate, set
aside or correct sentence (Document 49). By Standing Order (Document 50) entered on December
12, 2018, the matter was referred to the Honorable Omar J. Aboulhosn, United States Magistrate
Judge, for submission to this Court of proposed findings of fact and recommendation for
disposition, pursuant to 28 U.S.C. § 636.
On July 8, 2019, the Magistrate Judge submitted a Proposed Findings and
Recommendation (PF&R) (Document 58), wherein it is recommended that this Court deny the
Petitioner’s § 2555 motion and remove this action from the Court’s docket. The Movant’s
Objection to the Proposed Findings and Recommendations Concerning Petition for Habeas
Corpus (28 U.S. C. §2255) (Document 59) was timely filed on July 22,2019. For the reasons stated
herein, the Court finds that the PF&R should be adopted and the Petitioner’s § 2255 motion must
be denied.

Case 2:17-cr-00148 Document 60 Filed 11/20/19 Page 2 of 7 PagelD #: 354

FACTS
Magistrate Judge Aboulhosn’s PF&R sets forth in detail the procedural and factual history
surrounding the Petitioner’s motion. The Court now incorporates by reference those facts and
procedural history, but in order to provide context, the Court provides the following summary.
On February 22, 2018, the Petitioner, Joshua Gregory Richardson, entered a guilty plea to
conspiracy to distribute a quantity of methamphetamine in violation of 21 U.S.C. § 846. On July
19, 2018, he was sentenced to a 71-month term of incarceration, the top of his applicable
Sentencing Guideline range. He did not file a direct appeal. He now alleges that his counsel was
ineffective, rendering his guilty plea involuntary.
According to Mr. Richardson’s Presentence Investigation Report (PSR), officers using a
Confidential Source (CS) to make a controlled drug purchase from another individual, identified
as D.B., observed Mr. Richardson enter D.B.’s residence and exit a few moments later. They
followed his vehicle and conducted a traffic stop for failure to maintain control. A K-9 indicated
positively for controlled substances in the vehicle, and officers searched the vehicle and Mr.
Richardson. They seized $9,883, including $900 of pre-recorded money used during the controlled
drug transaction. He pled guilty in municipal court to a lane violation but contends that dash cam
video demonstrates that he did not violate any traffic laws.
Officers searched D.B.’s residence, and found quantities of methamphetamine and pills, as
well as guns. D.B. stated that she had purchased a total of eight to ten ounces of methamphetamine
from Mr. Richardson in several separate transactions. At first, she paid for the drugs in full when
she purchased them, but Mr. Richardson later began fronting her drugs, and she owed him about
$4,000 at the time of the search of her home. She admitted that she gave Mr. Richardson $3,000
on December 20, 2016, including the money she received during the controlled purchase.
2

■ Case 2:17-cr-00148 Document 60 Filed 11/20/19 Page 3 of 7 PagelD #: 355

Mr. Richardson signed a plea agreement with a stipulation of facts admitting that he
supplied methamphetamine to D.B. and admitting responsibility for 400 to 700 kilograms of
marijuana equivalency. The pre-sentence investigation found him responsible for 28.37 grams of
“ice” and 56.7 grams of methamphetamine, with a combined total marijuana equivalency of 680.10
kilograms.
The plea agreement also included waivers of appeal and of collateral attack, except as to
allegations of ineffective assistance of counsel. During Mr. Richardson’s plea hearing, the Court
advised him as to those waivers. He also indicated that he understood that he would not be able
to call or cross-examine witnesses or move to suppress evidence as a result of his guilty plea. At
the time of his plea hearing, he stated that he was satisfied with his counsel and had freely chosen
to plead guilty following consultation with his attorney.
Mr. Richardson now contends that his counsel was ineffective because he failed to file a
motion to suppress the traffic stop and D.B.’s statement. He argues that D.B. gave inconsistent
statements and that her statements constitute hearsay. Absent that evidence, he argues that the
case against him would have been dismissed.
STANDARD OF REVIEW
This Court “shall make a de novo determination of those portions of the report or specified
proposed findings or recommendations to which objection is made.” 28 U.S.C. § 636(b)(1)(C).
However, the Court is not required to review, under a de novo or any other standard, the factual or
legal conclusions of the magistrate judge as to those portions of the findings or recommendation
to which no objections are addressed. Thomas v. Am, 474 U.S. 140, 150 (1985). In addition, this
Court need not conduct a de novo review when a party “makes general and conclusory objections
that do not direct the Court to a specific error in the magistrate's proposed findings and
3

Case 2:17-cr-00148 Document 60 Filed 11/20/19 Page 4 of 7 PagelD #: 356

recommendations.” Orpiano v. Johnson, 687 F.2d 44, 47 (4th Cir. 1982). When reviewing
portions of the PF&R de novo, the Court will consider the fact that Petitioner is acting pro se, and
his pleadings will be accorded liberal construction. Estelle v. Gamble, 429 U.S. 97, 106 (1976);
Loe v. Armistead, 582 F.2d 1291, 1295 (4th Cir. 1978).

DISCUSSION
The Magistrate Judge found that the decision not to file a motion to suppress the traffic
stop was within the range of permissible tactical decisions his attorney could make. In the PF&R,
the Magistrate Judge notes that Mr. Richardson’s guilty plea to the lane violation would have made
any argument that the stop was not supported by probable cause difficult.

In addition, the

Magistrate Judge found that the officers had reasonable suspicion to conduct the traffic stop based
on Mr. Richardson’s brief visit to D.B.’s residence shortly after D.B. sold drugs in a controlled
transaction. Similarly, he concluded that a motion to suppress D.B.’s statement would have been
without merit, and notes that Mr. Richardson’s guilty plea waived trial, and therefore, mooted any
potential objections that could have been made during potential testimony by D.B. Finally, in the
PFR, the Magistrate Judge concludes that Mr. Richardson’s claim of actual innocence is
unsupported, given the significant evidence that he committed the offense of conviction, including
his own statements during his plea hearing.
Mr. Richardson objects, arguing that failing to seek to suppress evidence obtained as a
result of the traffic stop, as well as D.B.’s statements, constitutes deficient performance by his
attorney and prejudiced his case. He argues that his attorney should have sought to “quash the
indictment based upon [D.B.’s false] grand jury statements.” (Obj. at 2.) He contends that his
plea was involuntary and unknowing because he was unaware that he could file meritorious
4

.

Case 2:17-cr-00148 Document 60 Filed 11/20/19 Page 5 of 7 PagelD #: 357

motions to suppress. He requests an evidentiary hearing to further develop the record regarding
his claim of actual innocence, which he contends is supported by the lack of drugs found during
the search of his vehicle.
A post-conviction claim of ineffective assistance of counsel requires a showing “that
counsel’s representation fell below an objective standard of reasonableness” and that “any
deficiencies in counsel’s performance must be prejudicial to the defense.”

Strickland v.

Washington, 466 U.S. 668, 688-92 (1984). “Judicial scrutiny of counsel's performance must be
highly deferential” and based on the facts known to counsel at the time of the challenged conduct.
Id. at 689-90. “In the context of guilty pleas,” the first prong involves an evaluation of the
attorney’s competence in advising the client, while the second prong “focuses on whether
counsel’s constitutionally ineffective performance affected the outcome of the plea process.” Hill
v. Lockhart, 474 U.S. 52, 58-59 (1985). “In other words, in order to satisfy the ‘prejudice’
requirement, the defendant must show that there is a reasonable probability that, but for counsel's
errors, he would not have pleaded guilty and would have insisted on going to trial.” Id. at 59.
“Where defense counsel's failure to litigate a Fourth Amendment claim competently is the
principal allegation of ineffectiveness, the defendant must also prove that his Fourth Amendment
claim is meritorious and that there is a reasonable probability that the verdict would have been
different absent the excludable evidence in order to demonstrate actual prejudice.” Kimmelman v.
Morrison, 477 U.S. 365, 375 (1986).
Mr. Richardson claims that his counsel was ineffective because he failed to file motions to
suppress (a) statements from a co-conspirator and (b) evidence obtained during a traffic stop. The
statements from a co-conspirator would not be subject to a viable pre-trial motion to suppress. The

5

•

Case 2:17-cr-00148 Document 60 Filed 11/20/19 Page 6 of 7 PagelD #: 358

credibility of a witness may be challenged through cross-examination, and the decision to enter a
guilty plea waived the right to cross-examine witnesses in trial.
In this case, the decision by Mr. Richardson’s attorney not to file a motion to suppress
evidence obtained in the traffic stop falls within the “wide range of reasonable professional
assistance.” Harrington v. Richter, 562 U.S. 86, 104 (2011) (internal quotation marks omitted).
The Supreme Court has framed the issue as whether “no competent attorney would think a motion
to suppress would have failed.” Premo v. Moore, 562 U.S. 115, 124 (2011). As such, the Court
is not in the position of essentially resolving a post-judgment motion to suppress.

Instead, the

Court must consider only whether a competent attorney, evaluating Mr. Richardson’s case at the
time, could conclude that filing a motion to suppress was unlikely to be beneficial. The dash cam
video was not provided in discovery, and Mr. Richardson’s attorney did not make an effort to
obtain it. When Mr. Richardson’s attorney considered the possibility of a motion to suppress, he
“learned that not only had [Mr. Richardson] been ticketed, but that [he] pled guilty, [was] found
guilty by the Ironton Municipal Court, and that [he] even paid the fine” for the traffic violation.
(Pet.’s Ex. F to Mot.) (Document 49 at 29-30.) He concluded that a motion to suppress would lack
merit, given Mr. Richardson’s guilty plea to the traffic violation that supported the stop, and did
no further investigation. That evaluation, particularly when viewed in combination with the other
evidence implicating Mr. Richardson and the potential benefits of an early plea, is not evidence of
an unreasonable professional or strategic judgment.
Finally, Mr. Richardson argues that he is actually innocent of the conspiracy to distribute
methamphetamine to which he pled guilty and requests an evidentiary hearing. Given D.B.’s
statements, his brief stop at a residence that was the site of drug transactions, his possession of
money used in a controlled buy, and his admissions during his plea, the Court finds that no further
6

Case 2:17-cr-00148 Document 60 Filed 11/20/19 Page 7 of 7 PagelD #: 359

investigation into the claim is warranted. Accordingly, Mr. Richardson’s objections must be
overruled and his motion pursuant to § 2255 denied.

CONCLUSION
Wherefore, after thorough review and careful consideration, the Court ORDERS that the
Movant’s Objection to the Proposed Findings and Recommendations Concerning Petition for
Habeas Corpus (28 U.S.C. §2255) (Document 59) be OVERRULED and that Magistrate Judge
Aboulhosn’s Proposed Findings and Recommendation (PF&R) (Document 58) be ADOPTED.
The Court further ORDERS that the Petitioner’s Motion to Vacate, Modify, or Otherwise Correct
a Federal Sentence in Accord with Habeas Corpus Ad Subjiciendum (Codified as 28 U.S. C. §2255)
(Document 49) be DENIED and that this action be DISMISSED from the Court’s docket.
The Court DIRECTS the Clerk to send a certified copy of this Order to Magistrate Judge
Aboulhosn, to counsel of record, and to any unrepresented party.
ENTER:

November 20, 2019

IRENE C. BERGER
0
UNITED STATES DISTRICT JUDGE
SOUTHERN DISTRICT OF WEST VIRGINIA

7

Case 2:17-cr-00148 Document 70 Filed 01/30/20 Page 1 of 2 PagelD #: 406

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION
JOSHUA GREGORY RICHARDSON,
Petitioner,
v.

CIVIL ACTION NO. 2:18-cv-01503
(Criminal No. 2:17-cr-00148)

UNITED STATES OF AMERICA,
Respondent.
ORDER
Upon remand from the Fourth Circuit Court of Appeals, the Court has carefully considered
whether to grant a certificate of appealability in this case. See 28 U.S.C. § 2253(c). A certificate
will not be granted unless there is “a substantial showing of the denial of a constitutional right.”
Id. § 2253(c)(2). The standard is satisfied only upon a showing that reasonable jurists would find
that any assessment of the constitutional claims by this Court is debatable or wrong and that any
dispositive procedural ruling is likewise debatable. Miller-El v. Cockrell, 537 U.S. 322, 336-38
(2003): Slack v. McDaniel, 52.9 U.S. 473, 484 (2000); Rose v. Lee, 252 F.3d 676, 683-84 (4th Cir.
2001). Mr. Richardson pled guilty to conspiracy to distribute methamphetamine. Some of the
evidence was derived from a traffic stop. He pled guilty and paid the citation as to the traffic stop.
His attorney conducted no further investigation into the legality of the stop and did not file a motion
to suppress. In denying Mr. Richardson’s § 2255 petition, the Court concluded that the attorney
did not fall below an objective standard of reasonableness that impacted the outcome of the plea.
However, the Court finds that reasonable jurists could disagree as to whether it is objectively

Case 2:17-cr-00148 Document 70 Filed 01/30/20 Page 2 of 2 PagelD #: 407

unreasonable for an attorney to rely on a criminal defendant’s payment of a traffic citation to
decline further investigation into a traffic stop. Accordingly, the Court ORDERS that a certificate
of appealability be GRANTED.
The Court DIRECTS the Clerk to send a copy of this Order to the Clerk of the United
States Court of Appeals for the Fourth Circuit, to counsel of record and to any unrepresented party.

ENTER:

January 30, 2020

IRENE C. BERGER
CJ
UNITED STATES DISTRICT JUDGE
SOUTHERN DISTRICT OF WEST VIRGINIA

uoom nypecii. ^u-o iho

UUC.

iO

rneu. u»/uo//iu^u

ry. i ui h

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6143

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

JOSHUA GREGORY RICHARDSON, a/k/a “L,”
Defendant - Appellant.

Appeal from the United States District Court for the Southern District of West Virginia, at
Charleston. Irene C. Berger, District Judge. (2:17-cr-00148-l; 2:18-cv-01503)

Submitted: August 25, 2020

Decided: September 8, 2020

Before MOTZ, AGEE, and FLOYD, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Joshua Gregory Richardson, Appellant Pro Se. Richard Gregory McVey, Assistant United
States Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Huntington, West
Virginia, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

uoom ^pfjfcjcii. £u-o iho

L/UC.

meu. uwuo/i'u^.u

IO

ry. £. ui h-

PER CURIAM:
Joshua Gregory Richardson appeals the district court’s order accepting the
magistrate judge’s recommendation and denying relief on Richardson’s 28 U.S.C. § 2255
motion and a subsequent order denying Richardson’s Fed. R. Civ. P. 59(e) motion to alter
or amend the judgment.

Richardson contends that his counsel provided ineffective

assistance by failing to obtain dash camera footage of a traffic stop and by failing to move
to suppress evidence recovered from that stop. The district court granted a certificate of
appealability, and we affirm.*
“We review de novo a district court’s legal conclusions in denying a § 2255
motion,” including “any mixed questions of law and fact addressed by the court as to
whether the petitioner has established a valid Sixth Amendment ineffective assistance
claim.” United States v. Ragin, 820 F.3d 609, 617 (4th Cir. 2016). “When the district court
denies § 2255 relief without an evidentiary hearing, the nature of the court’s ruling is akin
to a ruling on a motion for summary judgment.” United States v. Poindexter, 492 F.3d
263, 267 (4th Cir. 2007). Thus, the facts must be considered “in the light most favorable
to the § 2255 movant.” Id.

* The Government argues that Richardson’s appeal is untimely. When the United
States or its officer or agency is a party in the case, any party must file a notice of appeal
within 60 days. Fed. R. App. P. 4(a)(1)(B). If a party files in the district court a motion to
alter or amend the judgment under Rule 59(e) within 28 days after entry of the judgment,
the time to appeal runs from the entry of the order disposing of the motion. Fed. R. App.
P. 4(a)(4)(A)(iv); Fed. R. Civ. P. 59(e). Because Richardson appealed within 60 days of
the denial of his Rule 59(e) motion, his appeal is timely.
2

UOOM4- Mfjpwdl. ^.u-o IHO

UUU. ID

riitju. u»/uo/£u^u

ry. OU14

A federal prisoner bringing a claim of ineffective assistance of counsel bears the
burden of “showing] that counsel’s performance was [constitutionally] deficient” and
“that the deficient performance prejudiced the defense.” Strickland v. Washington, 466
U.S. 668, 687 (1984). To satisfy the performance prong, the prisoner must demonstrate
“that counsel’s representation fell below an objective standard of reasonableness” as
evaluated “under prevailing professional norms.” Id. at 688. This standard requires “a
court [to] indulge a strong presumption that counsel’s conduct falls within the wide range
of reasonable professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action might be considered
sound trial strategy.” Id. at 689 (internal quotation marks omitted).
To satisfy the prejudice prong, the prisoner must establish “a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Id. at 694. In the context of a guilty plea, the prisoner must establish “a
reasonable probability that, but for counsel’s errors, he would not have pleaded guilty and
would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985). Moreover,
he “must convince the court that such a decision would have been rational under the
circumstances.”

United States v. Fugit, 703 F.3d 248, 260 (4th Cir. 2012) (internal

quotation marks omitted). “[W]hat matters is whether proceeding to trial would have been
objectively reasonable in light of all the facts.” Id.
We have reviewed the record, including the dash camera footage, and conclude that
Richardson failed to demonstrate prejudice resulting from counsel’s alleged errors.
Specifically, Richardson has not shown a reasonable probability that a suppression motion
3

uouw npjjtjai. £u~d im-o

uuu. so

would have been successful.

rntsu. u»/uo/^u/:u

ru. H V! H

Furthermore, even if a suppression motion had been

successful, Richardson has not shown that it would have been objectively reasonable for
him to proceed to trial considering the Government’s other evidence. Accordingly, we
affirm the district court’s judgment.
Richardson has also filed an emergency motion, in which he raises the threat of the
novel coronavirus and the resulting respiratory disease of COVID-19 to inmates at the
facility where he is incarcerated. The authority to grant a motion for compassionate release
under 18 U.S.C. § 3582(c)(1)(A) resides with the sentencing court.

Although the

sentencing court has denied similar motions by Richardson, Richardson has not appealed
those denials. We therefore deny Richardson’s motion.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

l

4

uourt't Mppeai: zu-o i^o

uu(j:

zu

meu: u/i//zuzu

ry; i ui i

FILED: November 17, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6143
(2:17-cr-00148-l)
(2:18-cv-01503)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

JOSHUA GREGORY RICHARDSON, a/k/a "L"
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Motz, Judge Agee, and Judge
Floyd.
For the Court
/s/ Patricia S. Connor. Clerk

